<html>
<title> - [H.A.S.C. No. 111-107]AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 3</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-107]

      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 3

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 17, 2009

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                  U.S. GOVERNMENT PRINTING OFFICE
54-038                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
SUSAN A. DAVIS, California           MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JOE SESTAK, Pennsylvania             CATHY McMORRIS RODGERS, Washington
GLENN NYE, Virginia                  DOUG LAMBORN, Colorado
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
                 Drew Walter, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant







                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, November 17, 2009, Afghanistan and Iraq: Perspectives on 
  U.S. Strategy, Part 3..........................................     1

Appendix:

Tuesday, November 17, 2009.......................................    41
                              ----------                              

                       TUESDAY, NOVEMBER 17, 2009
      AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 3
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     1

                               WITNESSES

Clark, Gen. Wesley K., USA (Ret.), Chairman and CEO, Wesley K. 
  Clark & Associates.............................................     2
Dorronsoro, Dr. Gilles, Visiting Scholar, South Asia Program, 
  Carnegie Endowment for International Peace.....................     8
Kagan, Dr. Kimberly, President, Institute for the Study of War...     6
Krepinevich, Dr. Andrew F., President, Center for Strategic and 
  Budgetary Assessments..........................................    10

                                APPENDIX

Prepared Statements:

    Clark, Gen. Wesley K.........................................    48
    Dorronsoro, Dr. Gilles.......................................    67
    Kagan, Dr. Kimberly..........................................    55
    Krepinevich, Dr. Andrew F....................................    79
    Wittman, Hon. Rob............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
     AFGHANISTAN AND IRAQ: PERSPECTIVES ON U.S. STRATEGY, PART 3

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                        Washington, DC, Tuesday, November 17, 2009.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 210, Capitol Visitor Center, Hon. Vic Snyder (chairman of 
the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    I am going to dispense with any statement of my own so we 
can get right to the witnesses. Mr. Wittman, anything you would 
like to say?

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. No, Mr. Chairman, I would do the same. I would 
ask unanimous consent for my comments to be entered into the 
record.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 45.]
    Dr. Snyder. Your statement will be made part of the record. 
All of the witnesses' written statements will be made part of 
the record, including the two articles by Dr. Kagan, two 
articles by Dr. Kagan, correct?
    Dr. Kagan. Correct.
    Dr. Snyder. And we are very pleased today to have you all 
here with us. This is our third in a series of hearings on 
directions in Afghanistan, of course in relationship with what 
is going on in Iraq also.
    Our witnesses today are General Wesley Clark, a retired 
United States Army General, Chairman and CEO of Wesley K. Clark 
& Associates; Dr. Kimberly Kagan, the Founder and President of 
the Institute for the Study of War; Dr. Gilles Dorronsoro, 
Visiting Scholar at the South Asia Program at the Carnegie 
Endowment for International Peace; and Dr. Andy Krepinevich, 
the President of the Center for Strategic and Budgetary 
Assessments.
    We appreciate you all for being here. As some of you may 
know, Wes Clark lives like one block from me, and this is the 
only time I see him is when he is testifying in Washington.
    We will turn the five-minute clock on for your oral 
statements, but more to give you an idea of the time. If you 
have more things you want to tell us, even when you see the red 
light go on, that is fine, too.
    So, General Clark, we will begin with you.

  STATEMENT OF GEN. WESLEY K. CLARK, USA (RET.), CHAIRMAN AND 
               CEO, WESLEY K. CLARK & ASSOCIATES

    General Clark. Mr. Chairman, thank you very much, 
distinguished members of this committee. It is a pleasure to be 
here with you to talk with you about the important questions of 
national strategy and our military endeavor in Afghanistan. I 
have given you a prepared statement. Let me just summarize the 
key points from it.
    First of all, I want to say up front I am greatly in 
sympathy with the military commanders, especially General 
McChrystal, who has asked for more troops. He needs them to 
provide for security for the population, to train the Afghan 
forces, to impede and constrain Taliban reinforcement and 
replenishment along the border with Pakistan. If I were in his 
position, I would have undoubtedly asked for more troops.
    But that is not the principal question we should be 
addressing here today, however great the outcry is demanding an 
answer. What we should be talking about here is the purpose of 
our engagement, our specific mission, the strategy and its 
requirements for success in diplomatic, political, economic, 
and military terms. And only after these requirements have been 
established are we able to get into the specific troop 
requirements.
    I want to say at the outset that I am very proud of the 
Obama Administration, because I think they are taking the time 
that is required to do the kind of in-depth strategic review. 
And this is not, as best I can determine, just a strategic 
review that is a bunch of number crunching and budget 
calculations and in and out between the Pentagon and across the 
Potomac. I think this is a searching examination of the basis 
for U.S. policy in the region and a thorough exploration of 
alternatives. I don't know when it is going to be concluded, I 
am not a part of that, but everything I see about it gives me 
assurance that we are asking the kinds of fundamental questions 
that need to be asked.
    The legacy of Vietnam, and as someone who fought there and 
came home on a stretcher and who was deeply involved in 
thinking about the policy for my entire military career, it is 
particularly painful to me to see where we are in Afghanistan. 
I recall from the early- and mid-sixties similar issues being 
talked about when we were escalating our presence in Vietnam. 
The same pleading for more troops. The same diplomatic 
constraints hindering cross-border operations.
    There was never any doubt the source of the war was North 
Vietnam, its military, its political leadership. And yet we 
were self-deterred from taking the kind of appropriate actions 
against that, and we tried to fight the war in South Vietnam. 
We tried to balance military needs, strategic concerns outside 
of Vietnam, and political support in the United States. And in 
the case of Vietnam we mostly did it wrong. When we could have 
used decisive military means early on, we were self-deterred. 
When we piecemealed and gradually reinforced, we lost public 
support anyway. And when we finally attempted to use decisive 
force, it was too late strategically.
    Now every conflict is different, and Afghanistan is not 
Vietnam, but we got to learn from our experiences there. There 
are some worrisome similarities in both conflicts, including a 
local government that lacks legitimacy and of course the whole 
bureaucratic politics of military escalation, U.S. public 
support, that have changed little in 40 years.
    So you have to begin by asking, ``What is the purpose in 
Afghanistan?'' Well, it is not to defeat al Qaeda because they 
are largely not there. It is not to create a functioning 
Western-style democracy, because that is clearly beyond our 
means in a nation that is 90 percent illiterate, imbued with a 
much different value system. So it must be something less. What 
it seems to me that we seek there is to prevent the emergence 
of a terrorist state that would physically harbor al Qaeda and 
use its diplomatic and legal authority as weapons against the 
very international system of which it is a member.
    Now these are minimalist objectives. They could be met by 
diplomacy, by promoting economic development, regional economic 
integration, acting through allies, threats, preemptive 
strikes, and limited incursions. And of course you can 
strengthen your defenses at home. In principle our purpose 
there does not require the reconstruction of Afghanistan any 
more than reconstructing Somalia, Sudan, Yemen, and other 
locations where terrorist are or have found shelter.
    We should have declared the war in Afghanistan over when we 
broke the back of the Taliban force and captured Osama bin 
Laden in the mountains of Tora Bora, but of course we didn't 
take Osama bin Laden in the mountains of Tora Bora. He and the 
senior leadership of al Qaeda remain a threat, and so now 
together with our NATO allies we have about 100,000 troops, we 
are in Afghanistan, and we simply cannot abruptly reverse U.S. 
policy. We can't abandon government in Afghanistan. We can't 
withdraw promptly our forces there, however much we might want 
to, without having adverse consequences far beyond Afghanistan 
and especially impacting on the government of Pakistan.
    We can see experience after experience with this. Al Qaeda 
would claim credit, terrorist recruitment would surge, 
subversion within states allied and friendly with us would 
intensify, Pakistan's stability would be further undercut, and 
U.S. power and prestige would wane. We would be dramatically 
increasing the threat.
    But on the other hand, the longer we stay, the larger our 
force, the more resistance and resentment that we might create 
by disruptive influences, by the casualties we inflict 
accidentally. We are a foreign element in a culture which 
doesn't tolerate diversity. However appealing it is to us to 
say that we have got to be strong enough and resolute to stay 
there, that is not our problem. The United States is one of the 
most resolute of countries. Our problem is that we are dealing 
with an Islamic revival, a struggle to cope with the spiritual 
impact of modernization and globalism, and that revival draws 
energy from the antagonisms our presence creates.
    So we need to find a way out, we need to seize credit for 
the successes we have achieved and then continue to deal with 
the region.
    So the approach I am recommending is focused on 
understanding an exit strategy and working toward it. The best 
exit strategy would be after we have taken down the complete 
leadership of al Qaeda in Pakistan. Now I know we have the 
number three guy, Khalid Sheikh Mohammed, going on trial in New 
York and he claims he is responsible for everything. If that 
were true, that would be great. I am not sure if it is true, 
but we do believe that there is still substantial al Qaeda 
leadership in Pakistan.
    The discussion of this has been publicly suppressed and 
probably should remain so, but I hope it will be foremost in 
the minds of the Administration.
    In the meantime, in Afghanistan we have to build an exit 
strategy around four factors: Attempting to reduce the level of 
violence by seeking a political amelioration of the conflict; 
greater assistance to the government of Pakistan in dealing 
with al Qaeda and the Taliban remaining in Pakistan; economic 
development in Afghanistan and Pakistan; and developing a more 
capable security structure for the Afghans.
    Just to highlight some of the details, I think you have got 
to provide incentives to create a more representative, more 
legitimate government there.
    You could frame these incentives around individual leaders, 
you could you talk about specific structural changes in the 
government, you could provide economic development 
opportunities. These could be positive or negative incentives. 
They have got to be worked, it has got to be a process. This is 
not about simply going to Hamid Karzai and say, ``Oh, that's 
it, Mr. Karzai, here is the five things you got to do and you 
got 24 hours to get them done.'' So but he should be--he has to 
take the lead one way or another in this.
    Your military strength, your reinforcements or your 
withdrawals, maybe that is an inducement to various parties, 
but I would say that additional troop reinforcements in spite 
of the strategy are not unreasonable. And if I were the 
commander I would sure be asking for them. You cannot achieve 
what you want to achieve there if you are forced off the 
battlefield. You have got to have a platform of military 
success to achieve the rest of it.
    So as the political process moves forward, maybe you talk 
about an exit date, maybe you have it conditioned, maybe it is 
a specific timeline. I don't rule anything out on the process. 
Maybe you have an outside presence like a United Nations 
umbrella as we did in Haiti in 1994-1995 with a U.S. Government 
advisory and assistance mission that works in parallel with 
that, but you have got to find a way to deal with the process 
in some way politically.
    You have got to help Pakistan. They have got to be leased 
the additional hardware, provided access to intelligence, 
intelligence collection systems, given appropriate incentives 
to deal with al Qaeda. They have got to have the systems to 
strengthen their internal security. And at the same time we 
should be focusing on a very strong Pakistani economic 
development effort, and we should take credit for it publicly. 
One of the things that Pakistanis always tell me is, ``You all 
don't leave any monuments, you try to make your assistance a 
secret, why don't you build a monument and advertise what the 
United States has done there.''
    But we must encourage and demand that Pakistan take direct 
action again the al Qaeda leadership. That won't be easy 
because there must be someone in Pakistan who must believe that 
if it weren't for al Qaeda being there, that we would be 
totally aligned with India. And so somehow we have got to 
disabuse the government of Pakistan of that suspicion. And it 
has got to be driven down through the ranks and we have got to 
have their wholehearted support to clean up their own internal 
security problems. For them it is not just a matter of teaching 
the Taliban a lesson and making them skedaddle back into the 
frontier areas, but it is a matter of their taking care of our 
principal threat for us so we don't have to.
    Afghan economic development needs to be promoted in the 
agricultural sector through providing an enhanced market for 
Afghan crops. If you don't outbid the price for opium, you 
can't compete in this market. Afghanistan should be a world 
granary for wheat and we should pay a premium to have the 
Afghans grow wheat, and we should export it. There are a lot of 
places in the world that need it. We should be encouraging and 
developing mineral and hydrocarbon resources in Afghanistan and 
promoting a long-range gas pipeline that connects India and 
Pakistan to Central Asian gas resources.
    As far as security is concerned, we have got to give them 
the additional security forces they need, primarily the police 
and the militia that they need. We are never going to be able 
to walk away from U.S. responsibilities for the support for the 
intelligence, intelligence collection, the logistics. We tried 
to do it in Vietnam, and it failed.
    So here are four elements of an exit strategy, and it is a 
dynamic process. I believe that what we have to do is work 
within these four elements and construct the exit strategy for 
Afghanistan. It is a multiyear effort, it may or may not entail 
at this point setting up the conditions or the timeline to do 
it, but the strategy has to be pointed towards getting us out 
of this conflict because there is no long-term, lasting role 
for Western military forces there.
    These aren't easy measures and there is no guarantee of 
success, but I think what we have to do is face the reality. We 
have done a lot already. We have been really pretty tough and 
pretty effective against the leadership of al Qaeda, but they 
are still around. Our obligations to Afghanistan are limited. 
We are not required to make them eligible for statehood. There 
will never be a complete and wholly satisfactory solution.
    And so we have to meet our own security needs, and the 
principal security need in this region is to reduce the 
continuing threat of al Qaeda, which is reportedly based 
principally in Pakistan. It is their decisive defeat that we 
must seek.
    Thank you.
    [The prepared statement of General Clark can be found in 
the Appendix on page 48.]
    Dr. Snyder. Thank you, General Clark. Dr. Kagan.

 STATEMENT OF DR. KIMBERLY KAGAN, PRESIDENT, INSTITUTE FOR THE 
                          STUDY OF WAR

    Dr. Kagan. Mr. Chairman, committee members, it is a great 
pleasure to talk with you today about Afghanistan and the 
strategy that the United States needs to adopt going forward. 
The mission of U.S. forces and indeed U.S. diplomatic 
engagement in Afghanistan is clear. We do need to disrupt, 
dismantle, and defeat al Qaeda and see to it that neither the 
Taliban nor any other enemy group within Afghanistan is able to 
provide sanctuary and safe haven for the kinds of terrorist 
groups that threaten not only the United States, but also the 
region--Pakistan, India, and the countries surrounding 
Afghanistan. And our role in Afghanistan therefore is to 
neutralize the Taliban, perhaps to defeat the Taliban, to see 
to it that that organization which has historically been 
extremely supportive of al Qaeda is actually not capable of 
considering itself any longer the legitimate government of 
Afghanistan. And that is how the Afghan Taliban led by Mullah 
Omar sees itself. And that is how al Qaeda sees Mullah Omar: as 
the legitimate ruler of Afghanistan, the leader of the 
caliphate that is rightful and rightfully guided in terms of 
its vision of the Islamic tradition.
    What we face inside Afghanistan, however, is more complex 
than simply al Qaeda or a Taliban group. Rather we face an 
indigenous insurgency within Afghanistan; that is to say, the 
people of Afghanistan are dissatisfied with their government 
and are fighting their government in order to establish some 
sort of alternative that suits them better than what it is that 
the government of Afghanistan is providing them. It is a 
classic insurgency. And when I say indigenous, I mean that most 
of the people fighting in Afghanistan are Afghans; they are not 
Pakistanis coming across the border but rather residents of 
Afghanistan with Afghan leadership, which happens to be 
sometimes dwelling in Pakistan as a government in exile.
    That means that in order to succeed in Afghanistan we 
actually have to defeat the insurgency, neutralize it, reduce 
its capability to be effective within Afghanistan and create 
the conditions whereby some form of legitimate government can 
actually take root and ensure that that government does not 
support the Taliban, does not support al Qaeda, and does not 
support the network of insurgent and terrorist groups that are 
linked into al Qaeda and other groups and cells working in the 
Pakistani region.
    How do we do this? Well, first, it is actually important to 
recognize who the enemy is and actually engage that enemy 
decisively. This is why more forces are required in 
Afghanistan, and not just a few more forces, a decisive amount 
of force, because in fact neither the United States nor its 
coalition partners have been able to engage the enemy 
decisively in key terrain; that is to say, terrain that is 
important to them, to the government of Afghanistan, and to us. 
Places like Kandahar, where we have essentially two battalions 
of Canadian forces and one battalion of U.S. forces operating 
in the spiritual heart of the Taliban insurgency, its location, 
its stronghold, and the spiritual capital of the Pashtun 
region.
    We need in fact to engage in order to not only prevent the 
enemy from launching attacks against us, but to prevent the 
enemy groups from actually intimidating the population of 
Afghanistan, compelling the population of Afghanistan in key 
areas such as Kandahar, Helmand, or Khost to deter them from 
actually participating and actively supporting enemy groups and 
to persuade those groups--those groups that they cannot win, 
and to persuade the population that we are there to safeguard 
them and support them.
    I have been to Afghanistan twice this year on battlefield 
circulations, and I can assure you that there are very few 
places in Afghanistan where we have the kind of force ratios 
that would allow the population to be protected from al Qaeda, 
to be protected from the Taliban, to be protected from the 
Haqqani network, and therefore the United States and its 
coalition partners are failing in Afghanistan in their 
fundamental mission of counterinsurgency.
    And here we have many lessons that we can draw from our 
experiences in Iraq, not just our experiences in Vietnam, where 
we were successful at reducing an indigenous insurgency through 
decisive use of military force and also through a comprehensive 
civil-military program in which we actually reduced the malign 
capabilities of the government, reduced their bad behavior, and 
fundamentally increased the kinds of services that the 
population actually needs.
    We do not need to build a modern state in Afghanistan, but 
Afghanistan does have a history of governance, and what the 
people of Afghanistan want is something that we can build. They 
want security, and they want the provision of justice, 
particularly in dispute resolution, and those are services that 
can be provided by engaging intensively in a counterinsurgency 
campaign, using all instruments of U.S. and coalition power and 
leverage in order to jump-start local government, to connect 
the people with their government, to reduce the malign 
behaviors of government, those that actually accelerate the 
insurgency, and to develop an Afghan national army that is 
actually capable of securing the population of Afghanistan and 
meeting the national security needs of this important country 
situated as it is amongst great powers, many of whom have 
nuclear weapons, and many of whom in the instance where 
Afghanistan is insecure will continue to wage proxy engagements 
against one another in order to see to it that they have 
leverage and they have control.
    This is something that the United States can do with its 
coalition partners. It is something that requires more force, 
it is something that requires a different kind of engagement by 
our civilian leaders. But it is something that we have to do, 
it is something that we have to do soon, and it is something 
that we have to do in order to meet our overarching strategic 
objective of preventing a kind of terrorist state from 
regaining control of Afghanistan, something that is dangerously 
close to transpiring right now.
    Thank you.
    [The prepared statement of Dr. Kagan can be found in the 
Appendix on page 55.]
    Dr. Snyder. Thank you, Dr. Kagan. Dr. Dorronsoro.

  STATEMENT OF DR. GILLES DORRONSORO, VISITING SCHOLAR, SOUTH 
    ASIA PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Dorronsoro. Thank you, Mr. Chairman. I will address 
three points. One, the counterinsurgency strategy is not 
working in Afghanistan currently. My second point will be about 
what we should do; that is to say, a more focused strategy. And 
the third point will be about resources, what kind of resources 
we need to avoid the further deterioration of Afghanistan.
    But the first point, the current shape, clear, or build 
strategy in Afghanistan requires that we control the territory 
and separate the insurgents from the population. As we have 
seen in Helmand Province, the strategy is not working for 
several reasons. The first reason, the relationship between the 
Taliban and the population is not what is generally said. The 
Taliban are local. It is impossible right now in the context of 
the south and east of Afghanistan to separate the insurgency 
from the population. Furthermore, there is no Afghan structure 
there to replace the coalition forces once the Taliban have 
been removed.
    The coalition forces are not accepted locally. Actually 
they are quite unpopular in places where they are fighting, 
such as Helmand, Kandahar, Kabul, and so on. This is a key 
problem, the more we are sending troops, the more we alienate 
the local population.
    The population's association with soldiers is 
counterproductive. Since they do not speak the language, they 
are constantly targeted by these ambushes, and they cannot do 
the kind of work for the population that could be a real 
counterinsurgency.
    Moreover, Pakistan doesn't control its border. I don't 
think it is possible to defeat the Taliban when the old 
Pakistani-Afghan border is quite open and when the Taliban have 
reached support in Pakistan where they have a sanctuary.
    The current offensive in Waziristan and the one before in 
Swat and the one before in Bajaur Agency were not directed at 
the Afghan Taliban. They were strictly directed against the 
Pakistani Taliban. So at this point I don't see any sign that 
the Pakistani Government is changing its policy of supporting 
the Afghan Taliban. That is a key element, and I don't think 
that we can defeat an insurgency in these conditions.
    What should we do? What are the priorities? I think that in 
the longer perspective on exit strategy we should now focus our 
limited resources on urban center and strategic course. The 
poorest population in Afghanistan lives in urban centers, and 
sadly you don't see practical results of the Western presence 
in Afghanistan since many years now in the cities; for example, 
Kabul. Kabul, not a lot of development, and after the billions 
of dollars we sent to Afghanistan I think it is a very sad 
result.
    Those cities are key because first, as I said, the poorest 
of the population lives there. Second, the Taliban are 
frightening more and more the cities. They are inside in city 
of Kandahar, inside most of the cities in the south and also in 
the east. I am thinking about Khost, Gardez, large parts of the 
towns in Lowgar Province. This is a natural strategic fight, 
because if we want to build Afghan institutions, it will be in 
the cities. It is not going to be in the countryside.
    So what the United States, and marginally the coalition, 
should do is to define three areas. First area: strategic 
zones, where the coalition should have total military control. 
It doesn't mean that you don't have some incidents from time to 
time, but it is under control. Main roads, cities, most of the 
towns when it is possible, it is not always possible, and that 
is where we must send most of our resources to protect this 
area.
    Second area is what I would call a buffer area around the 
cities and the towns. In this area the idea is to have a place 
where the military intervention is focused avoiding civilian 
casualties and, whenever possible, to probably to use militia, 
mostly not tribal militia because tribal militia are very 
difficult to manage, but local militia in the village. There 
are a lot of caveats, some dangerous, but basically it is 
doable.
    I would say that in the last territory, the opposition 
territory, that is the mountains, a large part of the 
countryside in the south and in the east. We don't have the 
resources to roll back. We don't have the resources to push the 
Taliban outside these territories. So the only thing to do is 
to have different strategy in the sense that the idea is not to 
put this under military control, but the proactive one in the 
sense that the U.S. forces must deter the opposition from 
launching operations outside these places against the strategic 
zone.
    What are the advantages of this strategy? First: time. We 
need time to build an Afghan army that is able to defend at 
least the cities. We need probably more than 5 years, between 5 
and 10 years. Currently the Afghan army is probably around--the 
real number is around 60,000. To double that number, to go, 
let's say, to 150,000 we need minimum 5 years. We don't have 
officers. We need--it is a very long-term project to build 
officers, petty officers as they are called, you know.
    Second, we cannot go with this level of casualties. From 
2008 to 2009 we are more than 50 percent increase in casualties 
for the coalition. So we are going from a little under 300 to 
probably this year over 500. If we do the same thing, if we 
extend the strategy we had in Helmand, to all south of 
Afghanistan it is going to be 700 or 800. I don't think it is 
politically doable.
    Another element, of course you have seen the results of the 
election in Afghanistan. We are now in the first democratic 
Afghanistan. People are cynical and I think they are right to 
be cynical about the current government, about the election, 
about the political process. We need a lot of time to build 
again some kind of Afghan regime able to survive the withdrawal 
of the Western countries. It is not doable with a high-level 
casualty strategy.
    My third point is about resources. First, I don't think we 
are suffering from underfunding, but there is a strikingly 
better location of resources in Afghanistan.
    Should I stop?
    Dr. Snyder. No, we have a series of votes coming up, but if 
you can finish up in a couple or three minutes and give Dr. 
Krepinevich his time, then we will go vote and come back and 
start questions. As it were, we will just pick up where we 
left. Go ahead.
    Dr. Dorronsoro. Contrary to what is often said, it is not a 
problem of underfunding, but bad location of resources. First, 
we are sending resources mostly to places that we do not 
control. Actually drugs are not the first source of finance for 
the Taliban. We are financing the Taliban because we are giving 
money to nongovernmental organizations (NGOs) who are working 
the countryside. They are obliged to pay the Taliban when we 
are sending trucks from Karachi to Peshawar. They have to pay 
from Peshawar to Kabul, they have to pay from Kabul to 
Kandahar, they have to pay again. And this money for large part 
is going to the Taliban. So we have to focus aid on places 
where we have control, some provinces in the north, the cities, 
and so on.
    Second, the troops are over-focused in the south. It was a 
major strategic mistake. Twenty thousand men in Helmand is 
exactly the kind of thing that is going to victory to the 
Taliban. We have lost control of Kunduz Province. We have lost 
control of part of Baghlan Province. We have lost control of 
Badghis Province. That is in the north, and the city of Herat 
is now directly threatened by the Taliban. We cannot spend all 
our resources in the south when the north is becoming the 
major, major problem.
    Thank you.
    [The prepared statement of Dr. Dorronsoro can be found in 
the Appendix on page 67.]
    Dr. Snyder. Dr. Krepinevich.

 STATEMENT OF DR. ANDREW F. KREPINEVICH, PRESIDENT, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman. In summarizing my 
remarks, I will speak primarily to Afghanistan but also to 
Iraq, and then finally to our overall strategic posture.
    To begin, I think if we are going to talk about strategy it 
is important to note that strategy in its basic terms is how 
you apply the means at your disposal to achieve the ends you 
seek. And as the definition suggests, the means to be employed, 
which include levels of troop strengths for example, are an 
integral part of crafting a strategy.
    Clausewitz said the first and foremost thing that any 
leader needed to do before contemplating war is to understand 
the character and the nature of the enemy and the war that they 
were about to engage. I think in its March 2009 white paper, 
the Obama Administration demonstrated that it does have a good 
appreciation for the character of the war in which we are 
engaged and the nature of the threat--I didn't know I was going 
to bring my theme music with me today.
    Second, to have a strategy it is necessary to set an 
objective. And in fact the Administration has: to disrupt, 
dismantle, and defeat al Qaeda in Pakistan and Afghanistan and 
to prevent their return to either country in the future.
    The President, I think in line with this, improved--
approved rather wisely a strategy that emphasizes traditional 
counterinsurgency principles.
    I would say if you look at General McChrystal's leaked 
report a lot of the themes that are expressed in that are 
similar to the themes that Dr. Dorronsoro just mentioned: an 
emphasis on security and on improved governance.
    Based on the President's statements as recently as August, 
he views the risks of failing to achieve our war objectives as 
quite high. He has declared this not a war of choice but a war 
of necessity and stated that if left unchecked the Taliban 
insurgency will make an even larger safe haven from which al 
Qaeda will plot to kill more Americans.
    The core issue at present doesn't seem to be a debate over 
the objective necessarily or the strategy for how to achieve 
it, but levels of troops that we are dispatching to 
Afghanistan, specifically General McChrystal's request for 
40,000 troops over and above what he currently has to implement 
the strategy.
    I will offer six observations or suggestions on how the 
committee might view that request. Three have to do with risk. 
Obviously there is a risk associated with not supporting the 
troop request. There is also a risk associated with sending 
those 40,000 additional troops.
    One potential risk, and of course we have heard it, is the 
risk of--the term is ``breaking the army.'' In fact our Army 
will so be overstretched and--so overstressed that it risks 
becoming a nonfunctioning combatant force.
    I would just offer two things here. One, it would appear 
with the ongoing drawdown in Iraq that even if we get to 30 to 
40,000 troop level in Iraq, that combined a 40,000 troop 
increase in Afghanistan would still leave us significantly 
below the troop levels we had deployed in Afghanistan and Iraq 
during the surge. First point.
    Second point is that thanks to the efforts of the previous 
Administration and this Administration over the past few years 
there has been an authorized increase in Army end strength of 
65,000, plus 8,000 in the Reserves, 27,000 additional Marines, 
and then more recently an additional 22,000 temporary plus-up 
in the Army's end strength. So you are not only talking about 
relatively lower troop levels than what we saw during the 
surge, but also a larger ground force component by a 
substantial margin.
    There is also the risk that such deployments might leave us 
unprepared for other contingencies. So that is sort of my 
second point. And again I think the questions here you have to 
address are, are these other contingencies likely to occur? If 
they did, for example in Korea or Iran, would we have a higher 
risk of failure? If we did fail would the consequences of 
failure be greater than those of failing in Afghanistan and 
Iraq? My only personal estimate, as outlined in my testimony, 
is that again those risks I think are workable right now, but 
again different people interpret risk differently.
    I would say the third area having to do with risk is 
whether or not General McChrystal is, to use a phrase, 
``padding the force.'' Is he requesting far more troops than he 
actually needs to begin to engineer a decisive turnaround of 
the kind that Dr. Kagan and Dr. Dorronsoro talked about?
    His report, the one that was leaked, indicates that he is, 
for example, not looking to secure the entire country at once, 
but progressively over time, which is very consistent I think 
with the Administration's strategy and with traditional 
counterinsurgency strategy.
    I do think though that it would be wise to find out 
specifically how the force is going to be used, what 
constitutes a decisive shift, what the campaign is, what the 
phases are, and how we would measure progress.
    Apart from the risk of deploying this force is also the 
matter of the strategy itself, and there are three issues that 
relate to this. One is one might want to undertake a review of 
one's strategy very shortly after one had put it in place if 
there were some dramatic change in the situation. There may be 
some dramatic change we are not aware of. I am not sure the 
Afghan elections really constitute that in the sense that to 
the extent there is corruption in Afghan that has pretty much 
been a known factor for some time now, almost since the advent 
of the Karzai administration.
    Second, I think you might want to review your strategy if 
it was a failed strategy. Yet the strategy really hasn't been 
fully implemented yet, and so it seems to me it is premature to 
say we have a failed strategy on our hands.
    And the third would be is there a better strategy out 
there, one that was not evident to us when the Administration 
set its strategy in March that is now available. I think there 
is one that goes by the name the counterterrorism strategy with 
emphasis on over-the-horizon air strikes, special forces, 
covert operations, and a focused attempt to kill terrorist 
leaders, insurgent leaders.
    My feeling here is we have tried this before, it has 
failed. The character of the conflict doesn't really lend 
itself to kinetic kinds of operations. The current term for it 
is ``whack-a-mole,'' going after and using kinetic strikes to 
kill key leaders. In Vietnam we tried it on a broader scale. It 
was called ``search and destroy.'' Go find the enemy; kill the 
enemy. Kill enough of them, kill their leaders, and eventually 
we win. It was tried to some extent in the late 1990s. We had 
the cruise missile attacks on Afghanistan. Some people called 
it ``therapeutic bombing,'' others, ``antiseptic warfare.'' 
Obviously that didn't do the job. We tried it early on in Iraq 
where the term ``whack-a-mole'' really originated in this 
iteration. And to a certain extent we tried in Afghanistan the 
last few years with our drone operations and our special forces 
operations.
    We have succeeded in killing a lot of leaders of the 
Taliban and al Qaeda and other related groups, but as we have 
pretty much acknowledged here, the situation really hasn't 
gotten better by emphasizing these kinds of operations. To make 
matters worse, they tend to alienate the population, which is 
the war's center of gravity.
    Final point on Afghanistan is: does a protracted review 
matter? Does it really matter? Obviously there is an advantage 
in taking your time and thinking things through carefully, 
getting all the facts, getting all the data. But there is also 
a down side, and the down side is that there are a lot of fence 
sitters, in this kind of war. Lawrence of Arabia once said that 
insurgencies are made of 2 percent of the population being 
active and 98 percent passive. To defeat them you need to 
mobilize the population on your side.
    If there is a sense that we are not serious or a sense that 
we are waffling back and forth, I think that creates problems 
for us. In a sense it is almost ironic that some things, some 
of the problems we are really trying to tackle, the 
Administration is really trying to focus on to some extent are 
undermined by a protracted strategic review in a sense that, if 
you want Karzai to seriously crack down on corruption, what he 
needs I think is a strong expression of American support. But 
it is support with conditions. The absence of that support 
really encourages him to strike deals with the locals, many of 
whom have to be paid off in forms of patronage and corruption.
    Similarly the Pakistanis, their attitude is that they, at 
least some elements of the Pakistani Government, view the 
Taliban as their hedge against an American withdrawal from 
Afghanistan and Indian ascendance in that country. They 
essentially accept the United States and the North Atlantic 
Treaty Organization (NATO) as the dominant external power in 
Afghanistan but are very reluctant, I think, to go after the 
Taliban if the feeling is that we may leave the path open for 
Indian ascendance in Pakistan.
    With respect to Iraq, just a couple of points. One is the 
drawdown is continuing. I think we have to look at a 
significant residual force. General Clark talked about the need 
for such a force in Afghanistan. I think we also need one in 
Iraq. In terms of Iraq also I think we do need to have a sense 
of what happens the day after the drawdown to a minimum force. 
We never really thought through the day after we pulled down 
the statue of Saddam Hussein in Baghdad. I think it would be a 
mistake to assume that the situation there is inevitably going 
to remain as stable as it is now without some serious effort on 
our part.
    My final point is to look at the broad picture. Again I 
commend the committee for taking a serious look at the strategy 
in Afghanistan and links in terms of the regional perspective. 
I would point out that if you look out over the coming decades 
and you look at key trends, whether they are economic, 
technical, demographic and so on, it is difficult to conclude 
otherwise than that the challenges to our security are 
increasing, they are going to continue to increase, the threats 
are going to become significantly more dangerous. And our 
ability to address them I think is eroding rather dramatically, 
not only in terms of the treasure we have poured into this 
conflict but our rather seriously eroding economic foundation 
and the similar difficulties that longstanding allies are 
experiencing in the same way.
    So in closing, let me applaud the committee's determination 
to both raise the level of awareness on these important issues 
and also its efforts to raise the quality of the discourse as 
to how we might best resolve them.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 79.]
    Dr. Snyder. Thank you.
    We have four votes. We hopefully won't be gone very long, 
and we will take up questions when we get back. We have been 
joined by Mr. Coffman, who will participate. We are in recess.
    [Recess.]
    Dr. Snyder. We will come back in session.
    Mr. Wittman will be joining us here shortly, and we will 
put ourselves on the five-minute clock.
    I think, General Clark, you have to leave 4:00-ish is that 
correct? And we will try to get a round at least once with all 
of the witnesses and then additional time with whoever is left.
    The first question I wanted to direct is to General Clark 
and Dr. Dorronsoro.
    Dr. Dorronsoro, at the end of your written statement, which 
I don't think you mentioned in your oral statement, your very 
last sentence you said is, ``The only solution to this problem 
is a political negotiation and the awareness of what is really 
at stake here: the credibility of NATO that is a military 
alliance.'' And I met with a European diplomat a few weeks ago, 
I guess a couple weeks ago, who also espoused the view that the 
world's perception of NATO's success or failure should be an 
important consideration of what we do.
    I would like to hear, General Clark, your response to that 
or what you think about that?
    And, Dr. Dorronsoro, to amplify on that.
    General Clark. It sounds like something that would have 
been in my statement.
    Dr. Snyder. It did. I saw it, but it was in his.
    General Clark. But it wasn't.
    Dr. Snyder. It wasn't.
    General Clark. NATO is a problem because it is a, it is a 
one-strike-and-you-are-out organization. It has been successful 
thus far. We took it into Afghanistan without NATO demanding of 
us an effective strategy. And were we to simply fold our tent 
and go home, I think we would have a problem with NATO.
    I think it is incumbent upon us to create an effective 
strategy that brings us success and an exit, and I think NATO 
can participate in that. But I think that the emphasis on troop 
contributions from other NATO countries has been a little 
misplaced over the years.
    It is going to take a lot more than simply troops for NATO 
to be successful in Afghanistan. And I think we should be 
looking for economic contributions, police training 
contributions, that are broader. And we should do the best we 
can to require NATO countries to cough up the other 
contributions when they say they can't provide those extra two 
helicopters that we wanted.
    Rather than simply doing the pressure on the two 
helicopters give them some alternative means of contributing. 
We do need more contributions from all the NATO members right 
now. I don't see this as--I see what we have to do is create a 
success strategy that is premised on leaving. And I think if 
you can build a strategy that is clear, that has some clear 
turnover points in it, that it is possible to keep NATO on 
board, give NATO the sense of success it needs and provide the 
sense of resolution that you need to resolve the problem on the 
ground in Afghanistan with the Pakistanis.
    I know I am asking for a lot. But that is why I think that 
the Administration is doing the right thing by taking the time 
to get the strategy right. Because there is a lot of seemingly 
contradictory pieces that have to be put in place to make the 
strategy work.
    Dr. Snyder. Dr. Dorronsoro.
    Dr. Dorronsoro. I think, first, that we think is that NATO 
is failing as a major alliance in Afghanistan. It is a clear 
failure. It is a dangerous failure, and I am not sure that NATO 
could survive this kind of war.
    Now, what to do about it. First, to be true, it is going to 
be extremely difficult for especially European governments to 
send more troops in Afghanistan. You have now over 70 percent 
of the British population who are supporting an exit from 
Afghanistan right now. So we are, politically speaking, on the 
verge of a real political point for all European governments.
    The second--and I would say, why? Because there is no 
perception of threat, perception of threat from Afghanistan. 
European populations do not perceive Afghanistan as a threat. 
That is a very general thing, and that is important.
    The second thing is, what to do about it. I would suggest, 
first, the truth that, in certain places, non-U.S. troops are 
not trying to do counterinsurgency or to do war. They cannot 
accept, for a political reasons, casualties. And we have a 
situation like Kunduz in the north or Mazar-e-Sharif, where the 
German army is not only inefficient against the Taliban but 
mostly counterproductive. I think we should offer an exit to 
the German troops, a means to use the German troops to train 
the Afghan army or to do something else. But I would prefer 
from my point of view to have 200 Marines in Kunduz than 5,000 
or 6,000 German soldiers.
    I think we are in the wrong way. We are putting always the 
political regiment first in NATO, and we are killing NATO in 
the long term because NATO is losing the war. We should be 
clear even if it is creating a political crisis inside NATO. We 
have to ask the question, why the Germans are not doing their 
work in the north? What is happening with the Italians in 
Herat, and so on and so on?
    And I would say the last point, quickly, is that NATO is 
not working because there is no unified strategy in 
Afghanistan. You know, there is always this question how the 
Taliban is a unified movement. But honestly, if I had a very 
theoretical choice between leading the Taliban and leading the 
NATO, I would prefer to lead the Taliban. Much more simple, you 
know. NATO is really not able to produce a clear-on strategy at 
the national level in Afghanistan.
    Dr. Snyder. Mr. Wittman for five minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    Thank you members of the panel for joining us today. We 
appreciate your patience and your indulgence with us as we move 
back and forth between votes.
    General Clark, to begin with you, you made a statement in 
the beginning saying you are very proud of the Administration 
and the time they are taking to be very deliberative in this 
decision-making process. I want to kind of put that into 
perspective on the timeliness issue. I know there has been a 
lot of focus on the timeliness of a decision. Obviously, we 
want to make sure we get the decision right, but I am 
wondering, at what point does timeliness become a significant 
element in that decision-making process?
    I know I have heard from a number of our men and women in 
uniform who are starting to get a little anxious about this. I 
am wondering what you see as the effect on our combatant 
commanders, men and women in uniform, and our allied partners 
as a decision continues to move on and on and on, and where do 
you think we are as far as the impact of timeliness on the 
effect on the effort there in our partners?
    General Clark. Well, I don't know that there is any hard 
deadline. Obviously, everyone wants a decision sooner rather 
than later. I believe that we are getting much closer to a 
decision. And I am not on the inside of this process.
    As I see it work from the outside, what I am looking at is 
a process in which all of the strategic actors are engaged, 
including the foreign governments in Afghanistan and Pakistan 
that we are working with. So I would go back to my own 
experience with things like the Dayton Agreement in which there 
was a war going on. We didn't have our troops on the ground at 
the time. But people were impatient for an agreement. And yet 
the trick was to be able to use the impending decisions as 
leverage in producing the overall process outcome that you 
sought.
    And as best I can see, the Administration is in fact doing 
that. So there is a lot of impatience about this. I know the 
troops want to know what is going on. I know the military 
leaders are concerned about planning. But that should not drive 
the process. In fact, I think as best I can see, there is a lot 
of good coming out of this in terms of the work through the 
nations in the region. And that work cannot be done in a series 
of quick overnight phone calls, position papers. And I don't 
think it is being done that way.
    I think it is being done through back-and-forth over a 
period of weeks with the host nation governments. And I think 
that is a constructive process. So I think we should be 
patient. I think the Administration is going to wrap this up 
pretty quick. But I think it has been a very productive 
process, and I commend them for it.
    Mr. Wittman. Dr. Kagan.
    Dr. Kagan. I disagree.
    I do believe that there is a role for strategic 
deliberation, but I also believe that the extent and the time 
being taken for the strategic deliberation does actually impose 
risks within the theater of war, and we need at least to be 
cognizant of the risks that are being taken as this discussion 
protracts.
    First and foremost, I do not actually agree with General 
Clark that it is possible or wise to use a decision about force 
levels as leverage, either with our allies or with our enemies 
or with the government of Afghanistan.
    On the contrary, what we learned from Iraq and from other 
counterinsurgency efforts is that commitment and a strong 
statement of commitment early on is actually what changes the 
balance of calculations among political actors and among the 
population. And so what the people of Afghanistan are looking 
for and what the government of Afghanistan is looking for and 
what Pakistan is looking for is the statement of commitment and 
having that statement backed up with action.
    Secondly, I do believe that we are starting to see a degree 
of pressure being put on our NATO allies, who are trying to be 
responsive to whatever the strategy is and will be but, because 
of the indeterminate nature of this process, are not being able 
to allocate the forces and the resources because they will be 
guided not by their own assessment of their objectives but by 
the U.S. lead.
    Thirdly, there are forces available for Afghanistan that 
could have been on the way and should be on the way by now. In 
particular, there could be a decision to commit the Ready 
Brigade of the 82nd. There could be a decision to accelerate 
the training of Afghan army and Afghan security forces, the 
funds committed in order to do that. All of those things could 
be under way.
    And the delays that are now ongoing do shift the ability of 
our commanders on the ground to conduct decisive operations in 
2010. In fact, I would say that, in fact, it is unlikely that 
our commanders on the ground will be able to accomplish a set 
of decisive operations in 2010, nor do I think that they will 
meet the 12- to 18-month turnaround timeline that President 
Obama initially gave to General McChrystal as sort of the 
bellwether for how fast he wanted to see results in 
Afghanistan. So we have to acknowledge those risks.
    Dr. Snyder. Mrs. Davis, for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you to all of you for being here.
    Dr. Krepinevich, in your written remarks, you state that 
President Karzai should understand that our support is 
conditional on his willingness to remove ineffective or corrupt 
administrators. And I wonder if you could address, what if he 
doesn't? I mean, what do you think we should be looking for, 
and others as well, and what if this doesn't happen? I mean, 
there are a lot of people who just don't believe that, even 
with what has occurred in terms of the election, that that is 
likely to change.
    Dr. Krepinevich. Again, I think if you look at, at least 
what the Administration's strategy is, if you look at what 
General McChrystal has proposed to do, a significant part of 
that was not just helping the Afghan national army or the 
Afghan forces; it was beginning the work in a sense of 
embedding ourselves in the Afghan government, not only to help 
them to improve the efficiency and the effectiveness of 
governance but also as a good means of identifying those 
individuals who are competent or incompetent, corrupt or 
honest, and who are loyal or who have a different agenda.
    And I think President Karzai has got to understand that, 
you know, that is a condition of our involvement. It serves his 
interest. It serves the interest of the country. And also 
conditional is our recommendations about people when we 
identify them as corrupt or incompetent or disloyal, that he 
has got to remove them. I think the incentive on his part goes 
up if he feels like the United States is engaged over time and 
that he has less of an incentive or less of a need to cut deals 
and to grant patronage, which of course is one step away from 
corruption, in government to play off different factions, one 
from the other.
    Ultimately, I think if that fails, then what you are left 
with is a decision about whether the situation in Afghanistan 
is hopeless or whether Karzai is hopeless, and whether, in 
fact, there are other leaders within Afghanistan who can better 
represent the needs of the people and be more legitimate. I 
think we are a long away from that point, especially if we get 
buy-in on the conditions that the Administration and General 
McChrystal seem to be intent on setting.
    I would also say, a colleague of mine, Dr. Strmecki, 
testified I guess a few weeks back, and his point--he spent a 
lot of time over there early on after the Loya Jirga and the 
elections and so on. There are a number of things that have 
worked with Karzai in the past. And again, I think that 
involves not only commitment on our part but also a very 
effective country team. And at that time, we had a country team 
that seemed to be able to get productive output from Karzai. 
And I suspect it is not a lost cause.
    And given the stakes that the President has said we have at 
risk here in terms of a war of necessity and concerns about not 
only instability in Afghanistan but a nuclear-armed Muslim 
state, Pakistan, and then in the broader region, and as General 
Clark says, the implications for the alliance and so on, I 
certainly think that it is worth a try, but again, I think it 
has got to be conditions-based.
    Mrs. Davis. Thank you.
    I don't know if anyone else wants to comment, especially in 
terms of any economic incentives or lack of thereof that you 
would like to address.
    I guess the other piece just really quickly, because I 
think what you are saying, we need to depend on some type of a 
military-civilian partnership, and that also, I think, would 
involve certainly a certain number of troops.
    And perhaps, General Clark, you could comment on that as 
well.
    Dr. Kagan.
    Dr. Kagan. Thank you very much.
    The question of how it is that we use our leverage, vis-a-
vis Karzai and the Afghan government, is really what is at hand 
right now, because we do have a lot of leverage. And that 
leverage comes in troops. It comes in money that the 
international community provides for the government of 
Afghanistan. It comes in terms of the training and support that 
we provide for the Afghan security forces, through our support 
of NGOs and other international elements working in 
Afghanistan.
    That is to say, troops are one source of leverage; money is 
another. We have a lot of leverage that we can bring to bear.
    The question is allowing our country team to bring that 
leverage to bear in the most productive way and in the most 
gentle way, or sometimes in the most effective way. And I 
really--I really do think that we have a lot of lessons that we 
have learned from our experience in Iraq in terms of how to 
apply that leverage. And I also think that it is essential that 
we not look at conditioning the troop levels going in as the 
only source of leverage.
    Mrs. Davis. I appreciate that. Thank you. I think the 
chairman is going to gavel you down. Thank you.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Thank you, Mr. Chairman.
    Let me read a paragraph and then I have got a couple of 
questions. `` `Yesterday,' reads the e-mail from Allen, a 
Marine in Afghanistan, `I gave blood because a Marine while out 
on patrol stepped on a pressure plate and lost both legs. Then 
another Marine was hit with a bullet wound to the head and was 
brought in. Both Marines died this morning.' '' This is from 
the column by George Will, September, ``America's Unwinnable 
Afghan War.''
    My question to General Clark as well as Dr. Kagan, two 
parts, is Afghanistan in our vital national security interest?
    Second, I will be glad to repeat, if it is, what is our 
goal, secondly, our objective, the end state? What are we 
seeking?
    General Clark.
    General Clark. Congressman, I think what is in our vital 
interest is the defeat of al Qaeda. And it is also in our vital 
interest not to be, not to have been defeated in Afghanistan. 
So, in my testimony, what I have tried to lay out is a somewhat 
realignment of our attention to where al Qaeda is primarily. 
They are primarily in Pakistan. The government of Pakistan must 
do more. It must be incentivized and assisted to do more. And 
what we must do is take the fight to al Qaeda.
    Now, principally al Qaeda is not in Afghanistan. But as a 
necessary but not sufficient component of taking the fight to 
al Qaeda, we have got to clean up the mess in Afghanistan. That 
means building the Afghan security forces; not getting forced 
off the battlefield; creating a more legitimate government that 
reduces conflict; and leaving behind something that can sustain 
and prevent--sustain itself and prevent the takeover of the 
Afghan government by a group that would use the organs of state 
and the rights of a state to promote international terrorism.
    Those are pretty minimalist objectives when they are stated 
that way. They don't require us to bring statehood conditions 
of probity to Afghanistan, but they do require a sustained 
commitment there for some period of time, and they require a 
lot more attention by the government of Pakistan on its 
responsibilities.
    Mr. Jones. Before Dr. Kagan, very quickly, how much longer 
can the military continue to go at this pace before we start 
seeing, because I have Camp Lejeune in the district, the number 
of post traumatic stress disorder (PTSD) cases have gone up 
astronomically? And how much longer can we keep going without 
an end point to what we are trying to achieve militarily? Do 
you have any idea?
    General Clark. I can't give you a time zone on it. But I 
would tell you this: that it is manifestly unfair to the men 
and women in uniform to have been sent back again and again and 
again on repetitive tours. So they are owed by their national 
command authority a strategy for success. That strategy hasn't 
yet been adequately defined for the context of the region.
    And that is why I am hopeful that the Obama Administration 
will do that now. And I think it will, and I think that is the 
purpose of the delay. And that involves intensive work with 
both the governments of Afghanistan and Pakistan.
    And then I think it is up to the--it is up to Congress to 
provide adequate support, including the right manning levels 
for the men and women in uniform so that we have a national 
security apparatus that can do that which we believe it is 
asked to do. And if we are not prepared to do that, then we as 
a nation have to adjust our objectives.
    We don't have enough men and women in the Army and Marine 
Corps to sustain the kind of commitment that--if we put the 
same number of troops in Afghanistan that we had in Iraq for 
the next 10 years we are going to break this force. So that is 
not an option, not under the current conditions. Something has 
got to the give.
    Mr. Jones. General, thank you.
    My time is about up. Dr. Kagan, I will go a round with you 
if we have another round.
    But I wanted to say I am one of the few Republicans that 
have thanked the President for taking time to figure out what 
our policy should be.
    I yield back, Mr. Chairman.
    Dr. Snyder. As I indicated earlier, we have been joined by 
Mr. Coffman, who is not a member of the subcommittee but a 
member of the full committee, and recognized for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    It appears already, and let me preface this with, I think 
there were nine soldiers recently lost in northeastern 
Afghanistan in a small forward operating base where it was hit 
fairly aggressively by the Taliban in a remote area that was 
pretty isolated. The tragedy is I think that they already had 
orders where they were going to withdraw in the next couple of 
days and abandon that particular forward operating base.
    And it seems that General McChrystal has already come to a 
conclusion that we ought to have a bifurcated strategy of 
counterterrorism with counterinsurgency; with counterinsurgency 
in the populated areas, and counterterrorism in the rural 
areas. I wonder if you all could comment on, number one, do you 
think that that is accurate, and number two, how effective 
would that strategy be?
    General Clark, why don't we start with you?
    General Clark. Well, I haven't spoken to General McChrystal 
about the strategy. I am not on the inside of this debate.
    I am worried about surrendering the border to the Taliban. 
You have got to maintain as tight a grip on the border region 
as possible. It is just that it is too big in relation to the 
forces. And I don't mean just forces on the ground; I mean the 
artillery that needs to be there in support, the Apache 
helicopters that come in. As one officer said to me, ``this is 
fast-mover country.'' I mean, you have got have fighter planes 
in the air all the time to deliver ordinance because this is a 
big country.
    So, you know, I really felt bad when I heard about the loss 
of the outpost, and I know that maybe there are tactical issues 
here that have to be worked, and maybe that was in the wrong 
place, and maybe it was going to be readjusted. But I hope that 
in the strategy we don't surrender that border to the Taliban. 
That will be a mistake.
    And one of the things we have got to do is we have got to 
give the commander the resources he needs to fight and win. If 
we are going to hold him responsible for winning, we have got 
to give him the resources. So I don't know what the right 
number is. I don't know if it is 10,000, 20,000, 40,000 or 
80,000. I do know that at this period of the war in Vietnam, 
when we were searching for objectives, we piecemealed the 
reinforcements. And we didn't provide enough to the military, 
and the military didn't ask for enough.
    So I hope General McChrystal has asked for everything he 
has needed. But he is not the final authority. That is the 
President of the United States. And he has got to put together 
the whole strategy. And again, I want to underscore, that is 
why it is important that we have taken the time to try to get 
this right.
    Mr. Coffman. Dr. Kagan.
    Dr. Kagan. In order to understand where to put our forces 
and how to use them, we have to understand where the enemy is 
and how it functions. And although we can talk very much about 
the enemy groups operating within the cities and the cities as 
being important to Afghanistan, what we actually see when we 
look specifically at the way the enemy behaves is that actually 
the enemy fights in and operates in essentially the suburban 
areas around cities, suburban perhaps is an overstatement, and 
uses safe havens in those areas to project force into cities, 
precisely because, in fact, fighting within cities is not a 
culturally acceptable way of conducting a campaign.
    Therefore, although we can talk about the need to secure 
important cities, such as Kandahar or Khost, we have to be 
careful to differentiate between securing the cities and 
placing forces inside the cities, because the best way to 
secure an area such as Kandahar may be actually to deploy 
forces in the surrounding areas.
    And the reason I raise that is that we have had a lot of 
conversations here in Washington about exactly where to put our 
forces and how to use them. And it is actually important to 
give the command some degree of leeway about where actually to 
use forces in a way that maximizes their contribution to the 
fight rather than prejudging where the enemy is, how the enemy 
is operating, and whether we should put our forces in cities, 
countries, or on the border.
    Secondly, on the border issue, we need to mitigate risks on 
the border which is too large for our forces to protect by a 
strong set of outposts through the use of special operations 
forces, other national assets, other technological assets. But 
the border is only one component of our strategy. We have an 
indigenous insurgency, and that is why, in fact, we need to be 
focusing on population centers within the country rather than 
trying to protect Afghanistan from infiltration from Pakistan.
    Mr. Coffman. Would anyone else like to comment?
    Dr. Dorronsoro. Yeah quickly, maybe. The border is out of 
control, and we don't have the resources to control the border 
with Pakistan. It is absolutely impossible to control. It is a 
very long border. The terrain is absolutely terrible. So you 
are not going to make it anyway.
    So what is happening is a more general phenomenon. The 
Taliban are now strong enough to--more than ambushes; it is 
really frontal attack on the isolated post. So it is a good 
idea to evacuate this kind of outpost. I think it is a good 
decision. And there is no way you can control Kunar and those 
places.
    The second point is that here we have something that----
    Dr. Snyder. Dr. Dorronsoro, I need you to get to your 
completing comment here.
    Dr. Dorronsoro. It is a general phenomenon that Western 
outposts are totally isolated, cut from the population. It is 
through everywhere in Afghanistan. Ask the Spanish forces in 
Badghis, the same thing. German in the north, same thing. 
French, same thing. So people they control what they see and no 
more.
    Dr. Snyder. We have also been joined by Dr. Steve Kagen who 
is not a member of the Armed Services Committee, but wanted to 
participate today. Dr. Kagen for five minutes.
    Dr. Kagen. Thank you, Mr. Chairman.
    I really appreciate the opportunity to sit in with you this 
afternoon on this very deadly serious subject.
    I welcome General Wes Clark, who I have become friends with 
over a long period of time since he was moving from the 
military ranks into the civilian civil servant--well, he almost 
did. I appreciate your many years of service, and I appreciate 
your testimony.
    I think perhaps the most pressing comments are in the 
statements that have been submitted. And Dr. Kagan presents us 
with this sentence, ``the fact that we have not been doing the 
right things for the past few years in Afghanistan is actually 
good news at the moment.'' I think I am just going to accept 
that statement from you to be agreeable to the idea that we 
really have not been doing the right things.
    I have just three questions. Whatever the strategy is going 
to be, it must answer these questions.
    First, will it work?
    Secondly, can we afford it?
    And thirdly, is it the right thing, is it the ethical thing 
to do?
    I don't see how the United States of America, without the 
full cooperation in every sense of the term from NATO, will be 
successful by anyone's definition of what success is going to 
look like.
    I am concerned, General Clark, because in a way you are 
expressing the Cheney philosophy that what he was seeking in 
Iraq was a ``stable government that could take care of itself 
and its people.'' Is that really what we are trying to do in 
Afghanistan? Are we trying to establish a government that can 
take care of itself and its people by training up some police 
and other military forces?
    And to follow up on that, do you really believe that a 
military solution is possible within that region?
    General Clark. Well, Congressman, in my opening statement, 
what I called for is a strategy based on an exit. And I did not 
call for a military solution. I called for a balanced strategy 
that required economic, diplomatic, and other work, and more 
emphasis on the government of Pakistan.
    But I don't think you are going to persuade the governments 
of NATO to suddenly mobilize and send tens of thousands of 
troops to Afghanistan simply because we ask it. So I think it 
is incumbent upon the Administration to craft the right 
strategy that can succeed, to explain it, to get the support of 
the American people, and to do it within a means that is 
affordable for us.
    If I were in General McChrystal's position, I probably 
would have asked for a lot more troops than he asked for, and I 
hope he has asked for enough to do the job. I think that amount 
is affordable within the context of the armed forces. But it 
won't succeed on the basis of military action alone.
    And in particular, I hope that we will reverse course from 
the Bush Administration, which wanted to ignore the presence of 
al Qaeda, or largely ignore it, in Pakistan. Look, the people 
that attacked this country are in Pakistan. They are primarily 
not in Afghanistan. And so we are asking our Marines to fight 
and our Army people to fight a supporting battle in 
Afghanistan, while the Pakistanis and our Predators take the 
main fight to al Qaeda. Something is a little bit wrong with 
the distribution of resources, and something is wrong with the 
understanding of this.
    I realize the government of Pakistan is terribly conflicted 
about this, but on the other hand, so have we been. So I think 
we need to get our objectives thought through. We need to put 
the emphasis where it is. I was delighted to see that the 
Administration, according to the press, has put more pressure 
on the Pakistanis. I hope we will give them the kind of leased 
military equipment, intelligence support, training, and 
economic assistance they need. And I hope that we will get al 
Qaeda out of there.
    As for the Taliban in Afghanistan, there is a military 
component and a security component to dealing with it.
    So I am not sure what the Cheney solution ever was to Iraq, 
sir, but I can't associate myself with it.
    Thank you.
    Dr. Kagen. Thank you.
    Dr. Krepinevich.
    Dr. Krepinevich. I do think the--you have the three 
questions. Can it work? I think, yes, it can work. Can we 
afford it? Yes, I think we can afford it. Is it ethical? Again, 
I am not quite sure how to answer that question.
    With respect to whether the priority should be Afghanistan 
or Pakistan, I think we have a situation now where, through a 
combination of efforts in Afghanistan and Pakistan, we have 
reduced the core of the problem to areas in western Pakistan.
    I would agree with General Clark that it is not one or the 
other. There has to be an effort in both areas. It has to be a 
significant effort. I think a critical part of that effort is 
not just the current troop levels. I think there has to be some 
sense of an American commitment.
    And of course, people in this part of the world remember 
that when we thought our commitment had been met in 1989 when 
the Soviets began to withdraw, we essentially abandoned that 
area after having operated very successfully to get the Soviets 
out. We set the conditions for the Taliban to come into power, 
for instability in Pakistan.
    Again, the Pakistanis look at the Taliban, at least some of 
them do, as their hedge to have an influence in Afghanistan if 
we pull out to preclude an Indian ascendency in Afghanistan.
    You know, Karzai looks to dealing with warlords and other 
corrupt elements as his hedge against our pulling out 
precipitously.
    So I do think that part of our demonstration that, yes, we 
have a workable strategy, yes, we have a way, a path to 
victory, which I do think enables us to withdraw, as General 
Clark says, I think that is important.
    But again, why do we have troops in Afghanistan? Well, we 
know why. Because of 9/11. Our troops have not been invited 
into Pakistan, and they won't be, and I don't think we should 
send any. However, if you solved the problem in Pakistan and 
did not solve the problem in Afghanistan, they would just 
migrate back to where they were prior to 9/11. So really you 
need a holistic approach, and I think that is one of the 
reasons why Congressman Snyder is saying, let's not just look 
at Afghanistan in isolation; let's look at the larger issue.
    And I just want to make one final point. In terms of this 
issue of the border/not the border, I think General 
McChrystal's strategy to me makes a lot of sense. If you look 
at the essence of insurgency warfare, it is all about 
intelligence. When I was in the Army in the Cold War, we always 
worried, do we have enough tanks, do we have enough artillery 
to stop the Soviets in Europe? We don't worry about firepower 
with these guys. We don't worry about our ability to win any 
battles. It is all about intelligence. If we know who these 
people are and where they are, we win.
    Okay, who has that information? Primarily in Afghanistan, 
it is the Afghan people. How do you get them to give you that 
information? I think some of my colleagues will point out, it 
is going to take awhile. But it all starts out with security, 
providing an enduring level of security so you can enable 
reconstruction that can be sustained over time that shows these 
people that they have a better life, that shows them that local 
government officials aren't corrupt; they can actually provide 
justice and adjudicate disputes.
    And that is what General McChrystal is saying; I need these 
40,000 troops to begin to jump start that effort and gradually 
expand and essentially backfill with local Afghan police, 
Afghan national army. Over time, they are taking on greater and 
greater responsibility.
    With respect to the sort of counterterrorism campaign, that 
is an economy of force. That is what people in the Pentagon 
call a cost-imposing strategy. That is not going to win the war 
for you. But, if by using drones, if by using special forces, 
we force more of al Qaeda's leaders and the Taliban leaders to 
spend more and more of their time and energy worrying about 
surviving as opposed to planning, organizing, and executing 
attacks in Afghanistan, in Pakistan, that is a worthwhile 
economy of force use.
    With respect to controlling the border, in a sense, we have 
been at this rodeo before. We tried to control the border in 
Vietnam, didn't have enough troops; tried to control the border 
in Iraq, didn't have enough troops; found out in both cases, 
the enemy was really inside, not outside, primarily. And again, 
if you can deny them access to the population, it is like 
denying them oxygen in this kind of war. If you can convince 
the people that you are on their side, that they have a 
brighter future ahead of you, that they have a legitimate 
government, and that you are going to win; that is when they 
start providing the intelligence, that is where we really began 
to get the tipping point going in Iraq.
    So, again, I think General McChrystal really has a good 
handle on things. Again, based on his report, it just makes a 
lot of sense in looking back over the history of insurgency 
warfare and a lot of our recent experiences, not just in 
Afghanistan but also in Iraq.
    Dr. Snyder. I wanted to ask, I think, General Clark, you 
are about to slip out, and we may lose Dr. Dorronsoro here, 
too. But before you leave, I wanted to ask the following 
question. And I have asked this of other panels. We went into 
Afghanistan in October of 2001. We all made some pretty strong 
statements as a country and as a Congress about, we would not 
abandon the Afghan people again.
    General Keane testified, and he was there at the time, I 
think number two in the Army, that toward the end of 2002, 
resources began being pulled out of Afghanistan and that the 
war has been under-resourced ever since, severely under-
resourced. But my question is, given what we said for that 
first year and prior to going in and after we were there and 
the encouragement we gave to a lot of Afghan people to assist 
the coalition, where should the concept, the moral 
responsibility to the Afghan people, fit into this discussion?
    And we will begin with you, General Clark. I know you have 
to leave fairly soon.
    We will give each of you a chance to comment on that 
question.
    General Clark. Well, clearly we have a responsibility to 
the people who threw their lot in with us. Those are the people 
who are identified and committed and publicly committed to the 
United States. We have had that responsibility in every case 
where we have operated in insurgent-counterinsurgent warfare.
    But I think our primary responsibility is to our own 
national security interests and to the men and women who serve 
in combat to meet those interests. And so we have got to get 
the strategy right. So I couldn't in good conscience look at 
young men and women and say, you should join the Army because, 
and serve this country because we have a moral obligation in 
principle to the government of Afghanistan.
    We did, we are doing and are going to do the best we can 
do, I think, and I think this Administration will do that. And 
we have a personal responsibility to the people that committed 
themselves to us. But our obligation is to get the strategy 
right and to take care of our own men and women in uniform and 
preserve our armed forces for the good of the country. So that 
is where I would put the priority on that.
    Dr. Snyder. And, Wes, I know you have to leave.
    Dr. Kagan.
    Dr. Kagan. This is a circumstance where the moral 
responsibility and the moral obligations that the United States 
has to the people of Afghanistan align with our national 
security interests, and so I do not actually think that we have 
a tradeoff here. We have a situation where, in order best to 
suit U.S. interests, to secure Afghanistan, to create an 
opportunity for it to be governed, to create an opportunity for 
it to survive as a state in a dangerous neighborhood, we need 
to conduct a counterinsurgency strategy. That is a strategy 
that helps the population of Afghanistan, protects them from 
intimidation, and uses our presence, the presence of our 
forces, as a way of conferring safety, security, and benefits 
to the people.
    And so although I agree with General Clark that we have to 
ask the question about whether our national security interests 
and our moral responsibilities align, since in this case I do 
believe that they do, the ethics of the situation are very 
clear; the United States needs to continue to be involved in 
Afghanistan and needs to conduct a counterinsurgency strategy 
in accordance with its stated objectives and its stated 
objectives since 2001.
    Dr. Snyder. Dr. Dorronsoro.
    Dr. Dorronsoro. I would say that the first moral 
responsibility is to be sure that conducting the war, the 
United States and the coalition are reasonably fair. For 
example, avoiding civilian casualties, treatment of prisoners, 
and so on. That would be the first thing: how we do the war in 
Afghanistan. And there has been a lot of progress the last few 
months.
    But let's remember that, let's say between 2002 or 2001 and 
2006, there has been a perfect disaster. And in a lot of places 
people are hearing very bad stories about the behavior of the 
Western forces in Afghanistan. That would be my first remark 
about the moral responsibility.
    Second, there are things we should absolutely not do. For 
example, to encourage people like Rashid Dostum or the warlords 
who are potentially extremely dangerous in Afghanistan. We 
should never play with ethnic groups, creating the condition of 
an ethnic conflict in Afghanistan. That is a huge moral 
responsibility.
    And if the situation is worse next year, and I think it is 
going to be worse next year, a lot of people will say, ``okay, 
we should arm the tribes; we should end the creation of the 
condition of an ethnic conflict.'' And in the longer term, I 
would say the people in Afghanistan are extremely divided about 
the presence of the Western coalition. Note, you have a small 
minority, a small minority, supporting more troops in their own 
country, more foreign troops in their own country. I think that 
is a point we should think about. And there is a limit between 
foreign forces here to help and foreign occupation. And we 
should very well cross this border if we are sending more 
troops in Afghanistan.
    Dr. Snyder. Dr. Krepinevich.
    Dr. Krepinevich. Again, I think we do have a moral 
obligation to the people of Afghanistan. I think that moral 
obligation holds until such time as either we accomplish our 
objectives, or we see that it is impossible under the 
circumstances to accomplish our objectives, or the situation is 
such that our commitments that we have made to the U.S. people, 
to people in uniform, and also to other allies and partners 
around the world, that those become so compromised that we have 
to make a difficult choice.
    In the past when we have had to make that choice, we have 
taken the people that General Clark said who have thrown their 
lot in with the United States, and we have done our best to 
make sure that they were able to leave the combat area and be 
resettled.
    I just would like to say something very quickly. We have 
heard the phrase, ``get the strategy right,'' over recent 
months. And I must say, at some point, you begin to wonder 
about the strategic competence of the U.S. Government. And I 
don't mean this particular Administration. It took us arguably 
four years to get the strategy right during the Vietnam War. It 
took us from 2003 to 2007 to get the strategy right in Iraq. 
How long have we been in Afghanistan?
    Can you imagine President Roosevelt, halfway through 1942 
in World War II, and we still don't know what our strategy is? 
Or President Truman, in the wake of the invasion of South 
Korea, saying, well, give me eight months and I will get the 
strategy right?
    If you look at President Truman, as a matter of fact, the 
famous National Security Council Report 68 (NSC 68) strategy 
that lays the foundation for the entire Cold War was done 
between January and April of 1950. Eisenhower's famous Solarium 
Strategy was done six weeks.
    And again, this isn't Republicans or Democrats; this is the 
U.S. Government. Somewhere, somehow, along the way, we seem to 
have lost the facility for doing strategy. And there is a real 
issue here because time is a resource, just as well as bullets 
and soldiers and allies and so on. And it is not clear to me 
based on what has been said today that time is on our side. And 
so if this is a precious resource and if it is not on our side 
and if we are spending time, as we try to come up with the very 
best strategy we can, on the one hand, that is to be applauded, 
but on the other hand, I think it makes me scratch my head from 
time to time.
    Dr. Snyder. Maybe we don't have enough solariums, Dr. 
Krepinevich. Maybe we all need more solariums.
    Dr. Krepinevich. Probably just one more.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    An observation, we talked a lot over the past month in this 
committee with our folks that have come to testify before us 
concerning the strategy and what does that mean, increased 
troop presence. I think we all realize that whatever we are 
going to do, it is going to be increased contact with the 
Taliban, increased military activity, increased casualties, and 
in the end, that is going to create some negative impact here 
with the American public.
    And we all know the issues we have gone through 
historically, as casualties begin to mount, the public's 
appetite for conflict tends to wane. And I think that is 
certainly a potential with this particular scenario as we ramp 
up presence there if that is the course of action the President 
chooses.
    Let me ask this. In that scenario, how do we as best we can 
counter that? In other words, how do we keep the American 
public engaged? How do we make sure that they know that the 
effort that it is going to take there is worthwhile, whether it 
is in resources, whether it is in human sacrifice, all those 
list of things that we know it takes to be successful there? 
How do we engage the public in a way to make sure that they are 
knowledgeable about that sacrifice and then again that we 
convey to them that there is a worth to that sacrifice? And 
that is really where the discussion boils down to. I would like 
to hear your thoughts on that.
    Dr. Kagan.
    Dr. Kagan. Congressman, I think that we have to recognize 
that, in a democratic country, obviously public opinion plays a 
role in shaping the way our leaders make decisions.
    But we also have to acknowledge the fact that our leaders 
play a role in shaping public opinion. And I think that as we 
pursue whatever strategy the President should choose in 
Afghanistan, the President has a responsibility to explain to 
the American people what course he has chosen, why he has 
chosen that course, what the likely results are of that course 
of action on the ground, and how it is that he thinks that the 
campaign in Afghanistan will proceed, so that American 
expectations are correctly shaped on the basis of reality.
    I am quite concerned that, in the formulation of this 
strategy, an overemphasis could be placed on what it is that 
the American people believe is the best course of action. We 
have strategic decision-makers to evaluate what is the best 
course of action in a military engagement and in our foreign 
policy. So in order to go forward, the President has to take 
leadership over his strategy and really explain it to all of us 
so that we can support it in the ways that we can and so that 
we can evaluate it in ways that are credible.
    Mr. Wittman. Dr. Dorronsoro.
    Dr. Dorronsoro. I would say that the first thing is that 
there is no credible narrative about Afghanistan right now. We 
cannot say, cannot explain that we are fighting for a new 
democracy in Afghanistan. That is not credible after the 
election of August, you know. So we have to define the 
narrative in a very narrow manner. It is a potential threat 
because al Qaeda is not in Afghanistan, so it has become 
extremely difficult to explain.
    The second thing is that we have to lower the level of 
casualties. So we have, for example, to go from 500 this year 
to 400 next year, and to show people that we are building 
something that is an exit, that is a responsible exit. In the 
sense that we are taking our time, we should not, absolutely 
not negotiate with the Taliban while taking our time, while 
building Afghan army, but we are leaving. It must be sure. And 
doesn't mean that we are not going to support the Afghan state 
for decades, and I mean decades, 50 years, possible, you know, 
but not with fighting troops.
    And that is the only way to build a consensus, because if 
you ask people what are you--okay, you don't want this war 
because of too many casualties, but what do you want to do? And 
then people are obliged to say, okay, we have to exit, but on 
the other hand, we have to protect the Afghan people. That is 
the moral responsibility. And it means that we have to be clear 
about an exit strategy.
    Mr. Wittman. Dr. Krepinevich.
    Dr. Krepinevich. Again, I think the Administration has some 
really strong factors in its favor. As I said, I think the 
Administration has correctly diagnosed the character of the 
conflict. I think it has set clear objectives, and I think it 
has a strategy that can move you towards accomplishing those 
objectives.
    We have a President who is a very persuasive, dynamic 
speaker, so the ability to convey this message to the American 
people is certainly there, a person to explain the narrative, 
as Dr. Dorronsoro says, to the American people.
    And then I think, of course, one thing I mentioned earlier 
is, and this is something I think the committee ought to be 
interested in, is, okay, if we buy into this, if we buy into 
the 40,000 troops or whatever and the strategy, how do we know 
that we are moving toward achieving our objective and we are 
moving forward at a reasonable rate? And again, I think there 
are metrics.
    In most counterinsurgency wars, there is the, they call the 
stoplight chart. You have got green for areas that are secure, 
yellow for areas that are contested, and red for areas that are 
controlled by the insurgents. Well, what does that snapshot 
look like today? What does it look like 6 months from now, a 
year from now, 18 months from now?
    And I think, again, the President, and he has already said 
this, he preaches patience, you know, this isn't going to turn 
around in a day.
    Other issues. What about economic growth in the country? 
What about employment in the country? Are people being removed 
from office because of issues of corruption? Are they being 
prosecuted? What about Taliban defectors? You know, we are 
beginning to see more and more defect from the ranks of the 
Taliban.
    Are the Pakistanis becoming serious about cracking down on 
the Taliban? I mean, I have spoken to many American senior 
policymakers. They go to Pakistan, and it is almost routine; a 
day or two before they get there inevitably some Taliban guy is 
arrested and it is, ``Aha, look, we are really cracking down.'' 
And then you leave, and they would go back to business as 
usual.
    The ring road, is the ring road secure? How often is the 
ring road attacked, is that becoming an avenue of commerce and 
an integrating function for the nation? Where are we in terms 
of substituting a different crop in a different economic base 
from the opium crop?
    So again, I think, again, we have a President who is a very 
effective communicator. He has got a good strategy. There are 
metrics I think that the American people can understand and 
certainly the Congress can understand. So again, you are right 
to be concerned; this is going to cost more both in terms of 
lives and resources. People, I think, are willing to accept 
that cost as long as they can see a payoff and progress.
    Mr. Wittman. Thank you, Mr. Chairman.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    You know, I mean, this is really difficult. It is really 
tough. I think that is why we are struggling. It is obviously 
why the President is struggling as well.
    The last time I came back from Afghanistan, having had an 
opportunity to actually sit down with women in the villages, 
which was quite impressive actually to hear their sense of even 
a possible future, I came away believing that if we provide 
that space, as you mentioned, that eventually, over time, 
training the troops, changing governance, that something that 
is defined as success with certain metrics, and I certainly 
have always wanted them to involve the building of some kind of 
civil society, not going as far as nation-building perhaps, but 
doing that.
    But I have also had a chance lately to speak to some people 
who have really been on the ground and just believe, I think, 
that there are some ancient divisions there that we just can't 
overcome, that are difficult to do that. And I think that we do 
talk strategy, which is appropriate, to try and understand 
that.
    But the difficulty is that there may not be a real 
opportunity for reconciliation, that we are talking about 
people dividing along societal lines, longstanding Pashtun and 
non-Pashtun, et cetera, et cetera. And I just wish you would 
comment on that, and are we understanding that enough? Do you 
all understand that enough? I mean, do we know enough to really 
know how to respond in some way?
    Dr. Dorronsoro, please go ahead.
    Dr. Dorronsoro. There are three main divides I am thinking 
of in Afghanistan. The first is an ethnic one. And obviously, 
the Pashtun, most of the Pashtun don't feel very comfortable 
with Karzai. They have the feeling that they are alienated from 
the government. Plus the majority of the fight is in their 
region, so they are losing civilians, of course, property 
destruction and so on. So this part of the population clearly 
has a major problem with the way it is working in Kabul. Even 
if Karzai himself is a Pashtun. And this divide is, I mean, it 
is back to the 1980s, I mean, or the 1990s at least.
    The second divide is a social one between people who are in 
the cities and people who are in the countryside. Kandahar is 
not really a city. It is something very special, but most of 
the cities, Jalalabad, Kabul, Mazar, Herat, have a special 
culture that is more open to foreigners, to modernity, and that 
is the only social asset we have in Afghanistan, basically. 
That is where we can have some kind of success that is not 
military.
    But in the countryside, let's say that people react very 
badly when they see foreigners with guns. And the idea that we 
are going to protect the population is somewhat naive. You 
know, you do not protect the Pashtun people. That is not 
historically what has been done. You can make a deal with them, 
but it is better to stay outside.
    And the third divide is an ideological one between, first, 
people who welcome us and now are working with the coalition, 
and fundamentalist people who are sometimes working with the 
coalition but not very clearly, and of course the Taliban. So 
you have a very deep ideological divide.
    And the fundamentalist movement is extremely strong in 
Afghanistan and is not committed to the Taliban. You have 
fundamentalist people in Kabul working with Karzai. You have 
fundamentalist people in the north. And that is why it is so 
difficult. You can speak with a woman in the village, you know, 
but at the same time, let's be clear, the real social order in 
villages is not exactly what we would like in terms of the 
woman's role and place in society. We cannot go against that. 
We cannot go because we are not very credible, speaking about 
human rights, for different reasons. And we just don't have the 
control of the countryside. And we cannot enter their houses. 
It is very difficult to do something.
    So, yes, we have all these divides in the Afghan society. 
And we must be extremely careful to play with it carefully so 
the situations don't get out of control. I am thinking about 
the ethnic divide. If we are not careful, if we are giving arms 
to the wrong people----
    Mrs. Davis. If I could just interrupt, I think part of the 
question is the ability, the capacity, in many ways, to do 
that, whether or not you can do it without the kind of civilian 
and, really, international kind of support that we have been 
seeking. That needs to be done on a whole different level than 
what it has done before.
    Dr. Dorronsoro. We don't have the resources to send 
civilians in the villages. We don't have the resources to do 
that. It is clear that we tend to portray the Afghans as some 
kind of passive people. No, no, they are taking charge of 
things. And the idea that we can remodel the Afghan society is 
wrong. We have to play with what we have. And we don't have a 
very good hand.
    Dr. Snyder. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I guess my question is, let's assume that the President 
gives General McChrystal the resources that he requires to have 
a high probability of success in Afghanistan. Can you give me 
an estimate of where you think what I would call the tipping 
point is?
    In other words, in Iraq we had the surge in 2007, along 
with other factors, that led to success. And then, in 2009, we 
started a drawdown of U.S. forces in Iraq. Clearly, what we 
want is--we don't want to win the war, we want the Afghan army 
to win the war.
    And so, can you tell me--I mean, can any of you give an 
estimate on where would that tipping point be where we would 
start being able to phase out our presence in Afghanistan?
    Dr. Kagan.
    Dr. Kagan. Congressman, thank you.
    The complexity of Afghan society makes it more difficult 
for our command to deal with and means that we will not 
necessarily see in Afghanistan a grand bargain or a huge 
systematic effect as quickly as we saw in Iraq, where the 
combination of the troop surge, the new civil-military team, 
and the new strategy and the extraordinary engagement with the 
people of Iraq truly had a transformative effect in a short 
time, such that, in early 2007, we wouldn't know what a Son of 
Iraq was and, by July, we were meeting them left and right in 
our visits to Iraq.
    We can't imagine that there is going to be a crescendo of 
sudden change in Afghanistan. So we have to set that 
expectation aside. Nevertheless, we can expect large change in 
Afghanistan and systemic change, just more slowly. What we 
ought to look for is, first and foremost, the securing of key 
areas such as Kandahar, Helmand River valley, Khost, in order 
to contain and, ultimately, neutralize the enemy systems.
    The second thing that we ought to be looking for is a 
substantial increase, an exponential increase, in the size and 
capability of the Afghan national security forces. It is one of 
the reasons why we need more U.S. forces in Afghanistan. 
Because hitherto we have not had the kind of relationship, the 
partnering relationship, with the Afghan army that we have had 
with our counterparts in Iraq.
    I have been to Iraq eight times since May 2007. And, since 
July 2007, I have rarely, if ever, met a U.S. battalion or 
brigade commander without his Iraqi counterpart. In 
Afghanistan, in my two visits this year, including with General 
McChrystal's assessment team, I did not actually have the 
opportunity to meet an Afghan counterpart to a battalion or 
brigade commander. That tells you something about how we are 
doing our partnering and how we are increasing the size of the 
Afghan army.
    So what we actually have to do is create a decisive 
situation on the ground. And I think that that will take 
several years. And it will also take several years to increase 
the strength of the Afghan army and the size of the Afghan army 
enough to be able to start handing over responsibilities to 
them.
    That is to say, we should not expect a sudden change in 
2010 the way we saw a sudden change in 2007 in Iraq. Rather, we 
should expect a two- to three-year process if General 
McChrystal gets what he wants, if those forces come into 
theater in a timely fashion, and then, finally, if those forces 
have the effect that he believes that they will have.
    Mr. Coffman. Thank you so much.
    I am short of time. Dr. Krepinevich, let me go to you next, 
because I had Dr. Dorronsoro, I think, before. So go ahead.
    Dr. Krepinevich. Just very quickly, I agree with Dr. Kagan.
    I would also add that, again, to a great extent, it is not 
just what is going on internal to Afghanistan; it is, 
obviously, also what is going on in Pakistan. To the extent 
that the Pakistanis take a more active role in this effort, 
that could accelerate progress in Afghanistan.
    Also, I wouldn't rule out the consequences of what happens 
in Iraq. If, for some reason, our position in Iraq really 
begins to erode, I think that makes things just all the more 
difficult in Afghanistan and Pakistan.
    And there are some metrics. Again, I think as Dr. Kagan 
said, you should be looking for some of the things I mentioned 
earlier: increased role on the part of the Afghan National 
Army; you know, what percentage of the overall effort has been 
assumed by them.
    I think one intriguing metric that we looked at during the 
operations in Iraq were what percentage of contacts with the 
enemy are initiated by our side. And if that percentage is 
growing over time, what that means is we are getting better and 
better intelligence about who the enemy is and where the enemy 
is. And so that is one surrogate for identifying whether or not 
you are winning the intelligence war, which is a surrogate for 
where the center of gravity, the population's disposition is.
    But, again, as Congresswoman Davis said, it is difficult. 
And I think, whether you like Rumsfeld or not, his phrase, 
``long, hard slog,'' just keeps coming back again and again to 
mind.
    Dr. Snyder. Dr. Kagen.
    Dr. Kagen. Thank you, Mr. Chairman.
    Let me just preface my questions with my own personal 
experience as a physician, having treated our veterans in 
military hospitals and Veterans Affairs hospitals (VAs) and my 
own clinics for a number of decades. And there is no greater 
national treasure than our veterans who have served. And for 
those that have come back damaged, not just mentally but 
physically, it is really hard to put Humpty-Dumpty back 
together again. Not just the soldiers, both men and women, but 
their families, their communities, the businesses that they had 
or that they worked for. So this is a deadly serious 
conversation that we are having, and I would like to share with 
you that perspective.
    So, what the soldiers have told me for 33 years as their 
doctor about the region we are talking about is it is real easy 
to get into Afghanistan and real difficult to get out. It is 
easy to get in, and it is hard to get out.
    And the Russians found that out when they went in. And when 
they left, they were being shot in the back end. And what did 
they win? What victory was theirs? Two thousand three hundred 
years ago, when Ashoka conquered the region, Ashoka turned to 
become a pacifist because of the carnage and the destruction 
that he had led his people into.
    So, is it possible for the United States--because that is 
who we represent--to align our own national goals with the 
existing tribal entities and groups that are present on the 
ground and allow those tribal entities to share their values, 
their goals with our strategic values about pushing back 
against and eliminating al Qaeda?
    Dr. Krepinevich. That one is for me?
    Dr. Kagen. Take all three.
    Dr. Krepinevich. I would say that, in a sense, there are 
cross-cutting goals. Obviously, the tribes in Afghanistan do 
not share every goal that we have, you know, given our 
different role in the world from theirs. I do think that there 
are some goals in common. I do think, if you look at the period 
immediately after 9/11 when we went into Afghanistan, the 
population there was very happy to be rid of the Taliban.
    And I think, in an insurgency, you know, there is the old 
phrase, ``You have to win the hearts and minds, but if you have 
to choose, win the minds.'' In other words, it is more 
important to convince the population that you are going prevail 
than it is to convince them that they ought to like you. 
Because, whether they like you or not, they are going to have 
to make their peace with whoever prevails in the conflict. So I 
think that is an important element.
    I think that, to a certain extent, we squandered a lot of 
the gains we made in the first couple of years. Their 
expectations were low, and we failed to meet them. In a sense, 
a very gradual slope, hoping things would get better. And, in 
effect, as was pointed out, resources were withdrawn toward the 
end of 2002, not only----
    Dr. Kagen. I would like to extend your answer also to the 
Pakistan region, because these are also--it is a mutual area; 
it is ``Pashtunistan,'' in my view.
    So how do we align their interest with ours so that we 
don't have to waste our national resources and our men and 
women?
    Dr. Krepinevich. Again, I think you are talking on a much 
broader plain over a much deeper or longer period of time. I am 
no expert on Pakistani ethnic groups, but, certainly, one area 
that has to be an area of enormous concern is the rise of 
madrassas that form a ready recruiting center for a lot of the 
young people who turn to radical Muslim agendas and so on.
    And, you know, how do you cut that pipeline? Is it a case 
of where parents in Pakistan, if given a choice between sending 
their child to a madrassa or to a public school that gives you 
an education that you can really use in modern Pakistani 
society, if they had that choice to make, you know, which way 
would they make it, I guess.
    There are huge issues in that country with respect to, for 
example, water resources. And I think solving that is key to 
essentially avoiding an even greater disaster and then 
potentially radicalizing even more people.
    So, you know, this cuts so wide and cuts so deep. And, 
again, Congresswoman Davis's point about, you know, this is 
certainly very difficult. I keep coming back to President 
Kennedy's speech that he made down at Rice University in 1962. 
He talked about the Cold War, in general, and the space race 
and so on. He ended up saying, ``We choose to do these things 
not because they are easy but because they are hard.'' And a 
sense that each generation is defined not by the easy 
challenges they surmount but the difficult and hard challenges 
that they are willing to take on and prevail in. Of course, the 
$64 question here is, is that challenge possible to prevail in?
    Dr. Kagen. Dr. Dorronsoro.
    Dr. Dorronsoro. I would say that the values are very 
different between the Afghan people, generally speaking, except 
a few in the cities, but the values, our values, are very 
different.
    The second point is that a minority of the population is 
tribalized in Afghanistan. So the tribes are not that 
important. You have two different things. People can have a 
tribal identity, but it doesn't mean that they are organized 
with tribal institution. And the only place where you have 
tribal institution is in the east, actually, functioning tribal 
institution.
    And there it would have been possible in 2002, 2003, 2004, 
to do something, but it is lost now, because the Taliban have 
undermined the tribal system in Afghanistan. They are 
revolutionary in local terms, and they are fighting the tribes 
very much but not enough to create the kind of social program 
you have in Iraq.
    So I don't see which tribe is going now to work with the 
United States against the Taliban. It is too late. One of the 
last tribes that wanted to do that, on the border, is not in a 
neutral position. So they do not attack anymore the Taliban 
when they cross their territory. So we have lost the tribal 
potential ally, you know. That is dead.
    On the Pakistan side, I don't see how we can really align 
our interests with Pakistanis' interests, being the Pakistani 
army is totally obsessed by India. So their only problem is 
with India. So they want us out of Afghanistan and the Taliban 
back in Kabul for one reason, is that if the Taliban are back 
in Kabul, India will be no more in Afghanistan. And they think 
it is going to be good for their strategies there. At the same 
time, we can have other ideas about what would be the 
consequences on Pakistan if the Taliban are back in Kabul, but 
whatever.
    So I don't see any possibility to align our interests with 
Pakistan on this subject. But fighting al Qaeda could be a 
common interest with Pakistan--the Pakistani army, Pakistani 
Government. That is not a big deal. The big deal is the Afghan 
Taliban, specifically.
    And let's think, if we think about Pakistani tribes on the 
Pakistani side the border, it is hugely, hugely anti-American. 
I mean, it is just crazy. So there is absolutely no possibility 
to do anything on this side of the border.
    Dr. Kagen. Thank you.
    Dr. Kagan. Congressman, I think we need to look at this 
question at a micro-level and then at a macro-level.
    We, at the Institute for the Study of War--I have a team of 
analysts who work with me doing open-source analysis--have been 
preparing a report on Kandahar city and its environs and, 
really, what the history of U.S. coalition force engagement in 
Kandahar has been and how that has interacted with local tribal 
family political structures. And we hope to release it next 
week.
    What is very interesting, as we start looking at the most 
localized dynamics, is that the United States and its coalition 
partners have not gone out of their way to support those 
individuals, families, and tribes that have historically been 
pro-government or anti-Taliban. Rather, we have not really 
taken into consideration the leanings of a tribe, a family, or 
an area as we have deployed our forces and given our resources.
    As a result, the Taliban has consistently been able to 
undermine those tribes, families, leadership structures that 
either actively support the government or actively detract from 
the Taliban; the Arghandab district of Kandahar Province being 
one key example that we explore in our paper.
    So, at a microscopic level, what we can see is that the 
allocation of forces to specific areas can change the dynamics 
of the power structures at a local level and, actually, do so 
in ways that have national political ramifications. For 
example, because the Karzai family is from Kandahar, the effect 
that our troops will have in the Arghandab River and region 
will have an impact on how it is that the Karzai family is able 
to use its power not only within Kandahar but nationally.
    And I think, as we start to look at the McChrystal 
strategy, we have to, again, be aware that these kinds of 
nuances, they are the kinds of nuances that our commanders on 
the ground make when they actually allocate the resources that 
they are given to objectives.
    But when we ask the question at a macro level, can we align 
the interests of the government of Afghanistan with U.S. 
interests, or the government of Pakistan with U.S. interests, I 
would remind all of you that, of course, there are different 
interest groups within these governments, and they compete with 
one another.
    Certainly, we have an opportunity under way in Pakistan 
right now, as a constituency within the Pakistani Government 
has decided actively to pursue common enemies, particularly the 
Pakistani Taliban, in not only Bajaur, Swat, and Waziristan, 
but that has ramifications, of course, in Afghanistan writ 
large. We have opportunities to harness these particular and 
somewhat transient alignments that are now under way.
    But we do not actually have to align all of the government 
factions and all of their interests with ours. We just need to 
create an alignment that allows us to achieve the kinds of 
narrow objectives that we have. For example, a functional 
government in Kabul that can secure Afghanistan through its use 
of force, that can regulate disputes, and that probably won't 
get in the way of the average ordinary person much more than 
that.
    So we can't, certainly, align all of our interests, but we 
can see to it that we accomplish those objectives by aligning 
those handful of interests that we really need to compel our 
friends and foes to put up with.
    And I think, as Dr. Krepinevich stated earlier in this Q&A 
session, the best way to do that is through strength. You can 
try to persuade people that their interests have something in 
common with yours, or you can try to persuade them that it is 
not useful for them to have other interests right now. And that 
is one of the roles that force plays in a counterinsurgency 
conflict.
    Thank you.
    Dr. Snyder. Thank you.
    Most congressional hearings, as they proceed through the 
hour or two that they endure, we gradually lose members. I 
think this is the first time I have been in one where we have 
gradually lost witnesses. But we appreciate the two of you 
being here.
    I actually want to end, Dr. Krepinevich, with two military 
personnel-related questions for you, if I might have you put on 
your old Army hat.
    At the end of--about a year ago, this subcommittee put out 
this report, ``Building Language Skills and Cultural 
Competencies in the Military: DOD's Challenge in Today's 
Educational Environment.'' I will just read the first couple 
sentences from the executive summary.
    ``There is no doubt that foreign language skills and 
cultural expertise are critical capabilities needed by today's 
military to face the challenges of our present security 
environment. But only a small part of today's military is 
proficient in a foreign language. And, until recently, there 
has been no comprehensive, systematic approach to develop 
cultural expertise.''
    I was reminded of our report, the unclassified version of 
General McChrystal's assessment. On page 1-2, he says, ``As 
formidable as the threat may be, we make the problem harder. 
International Security Assistance Force is a conventional force 
that is poorly configured for counterinsurgency, inexperienced 
in local languages and culture, and struggling with challenges 
inherent to coalition warfare.''
    That phrase, ``inexperienced in local languages and 
culture,'' what does it say--maybe this is a bit related to the 
solarium question. What does it say, after eight years in a 
country fighting a war, that we still have to say one of the 
things that is holding us back is inexperience in local 
languages and culture? What does that say about us and how we 
are going about doing things?
    Dr. Krepinevich. I think one aspect is the work of your 
committee and the fact that the services--I have talked to 
people in the Army and the Marine Corps. They really are 
beginning to emphasize issues like cultural awareness, in 
particular, and also language proficiency.
    What it says, I guess, from my own observation, is that I 
think, for a number of years, some of the military services, 
the Army and Marine Corps probably most, were in kind of a 
state of denial. You know, there was this issue of, A, we just 
didn't understand. You know, the Army had gotten out of the 
counterinsurgency business after Vietnam.
    When I went down to Training and Doctrine Command (TRADOC) 
in 2003, they said, ``We don't have any counterinsurgency--we 
have this old thing that nobody ever read. And we are going to 
have to sit down and start rethinking it.'' This was General 
Byrnes and his staff. They were very candid, and at least they 
recognized the problem.
    So, not even understanding what kind of conflict they were 
in, asking him, ``Well, what is our campaign plan in Iraq?'' 
And it was, well, brigade commanders--it is kind of the jazz 
era; brigade commanders kind of doing what that brigade 
commander thinks he ought to be doing. So I think there was 
this lag in understanding just what the problem was.
    And then came the issue--and I think it is one of the 
reasons why you didn't see Mine Resistant Ambush Protected 
Vehicles (MRAPs)--that this was a one-off. I mean, the strategy 
was, as President Bush said, as they stand up, we will stand 
down. Well, we are training these guys. If they are going to be 
ready to go in Iraq in 2005 and 2006, we don't need MRAPs. By 
the time we get them, we are going to be out of there. So there 
was this, ``Well, we are getting out of town here, and this is 
really kind of a one-off.'' And I had an Army general tell me, 
``Look, we have had our hand on the stove for a while now,'' 
meaning we have been in Iraq and Afghanistan. ``Once we take 
our hand off the stove, and it isn't going to be long, we are 
not going to do this again. The American people won't tolerate 
it. Look at all the dissension it is causing.''
    So I think there was a combination of just not knowing what 
we had gotten ourselves into. We had gotten out of that 
business, in a sense. And so there was a lag in understanding 
what exactly the requirements were. And then I think there was 
a bit longer of a lag as a consequence of a belief, at least on 
the part of many, that this was kind of a one-off. You know, 
``Okay, we understand what we are in, but we really aren't 
going to be in it much longer. We are going to turn it over to 
those guys, and then we will go back to business as usual.''
    And, you know, there is always the institutional 
resistance, you know, officers, noncommissioned officers 
(NCOs), trying to acquire these skills. I talked to Marines, 
and their attitude was, ``Well, yeah, we will do it, but each 
Marine is going to do it on his or her time. We are not going 
to put any of this in''--you know, because Marines are just too 
darn busy. Well, you have to make that a priority. And so that 
became an issue.
    So, again, it is very encouraging to see people like 
yourself and the Members pushing this issue. I know Congressman 
Skelton has been a long-time advocate of the importance of 
military education. And it is also encouraging to see some kind 
of a payoff. Because, obviously, when people like General 
McChrystal highlight it and are really banging the table on it, 
I think we have finally turned a corner.
    Dr. Snyder. The second question I want to ask--and any of 
you should feel free to punt on this one since you had no--this 
was not in McChrystal's report. But you mentioned earlier the 
increase in the size of the Army and the increase in the size 
of the Marine Corps. And I think all of you in some way have 
discussed the stress on the force and the numbers, that a large 
deployment can cause stress on the military families.
    One of the issues that has been discussed through the years 
by the American people and this Congress is the role of women 
in the military. And they have played such an important role in 
both Iraq and Afghanistan.
    We have some very convoluted and complex statutory 
restrictive language that, I would think, would be difficult 
for the military to comply with, although they assure us that 
they do, with regard to both Afghanistan and Iraq.
    Is it time just to get rid of that legislative language and 
tell the Department of Defense that they need to do with the 
personnel what is in the best interest of the military, 
assuming there will be some units that they may conclude they 
are not going to have women in or there may be some military 
occupational specialties (MOS) they may conclude--but is it 
time just to say it needs to be up to the military to make that 
decision rather than Congress?
    Dr. Krepinevich. Again, I am no expert, but my gut tells me 
that your gut instinct right.
    I was out on an aircraft carrier a couple years ago. 
Admiral Stavridis invited me out. And you see these planes 
coming in. It is amazing, these 19- and 20-year-old kids 
basically running the entire operation. And this one Marine jet 
lands, F-14, this pilot gets out, and I think, ``That is one 
heck of a small pilot.'' The pilot takes her helmet off, and it 
is a ``her.'' And it is just--I mean, I have spent most of my 
life in the Army; it was dominated by men.
    And you come to realize that, in so many jobs, combat and 
noncombatant jobs, that you don't have to be a pro wrestler in 
order to do the job. If you are physically fit, you are 
probably qualified. And a lot of it involves mental agility and 
technical expertise. And that is not the domain, you know, 
purely of men, if it is in their domain at all. Sometimes I 
wonder. The other aspect is, obviously, there are a lot of 
women who are more physically fit than men, so the notion that 
only men can do this, I think, has certainly been proven wrong.
    I would say the only concern--and it would certainly fall 
within the parameters of what you just defined--is anything 
that would be detrimental to good order and discipline. And I 
guess we are going to get a test when we have females on 
submarines. That is a very tough environment to be in, very 
closed, constricted, long periods of time.
    But, again, I think you are right. I mean, if we try and 
eliminate common sense and the needs of the service out of this 
by being overly restrictive, I don't think we help the soldiers 
and the other service members, I don't think we help our 
military, and I don't think we help our country. And, again, I 
am a big fan of common sense in those situations.
    Dr. Snyder. I think all of us have participated in welcome-
home events and award ceremonies, and the number of women that 
have been indispensable in the success of the missions has been 
very impressive.
    And I think it has probably been brought home, just in the 
last two or three weeks. I think it may have been The New York 
Times that had the wonderful photograph of the four Marines 
sitting down taking a break, doing a classic military thing, 
which is a boot off and a sock off, trying to figure out what 
the hell is going wrong with that foot. And they were all four 
women Marines in Afghanistan.
    Dr. Krepinevich. Well, the other thing is that, you know, 
there really are, in these wars, no front lines, no rear lines. 
It is not as though, if you are here, you are safe.
    Dr. Snyder. Which makes it--and that is the beginning of my 
question. The difficulty, I think, the difficulty of trying to 
comply with the kind of statutory restriction we put on them 
that may make sense in a Cold War scenario with a potential for 
a hot war, but I think it makes it very convoluted.
    We appreciate both of you still being here. Thank you.
    We are adjourned.
    [Whereupon, at 4:48 p.m., the subcommittee was adjourned.]



=======================================================================



                            A P P E N D I X

                           November 17, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 17, 2009

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                                  <all>

</pre></body></html>
